                                                                                Office               Hotline

    Office of Inspector General                                                 202.692.2900
                                                                                peacecorps.gov/OIG
                                                                                OIG Reports
                                                                                                     202.692.2915 800.233.5874
                                                                                                     Online Contact Form
                                                                                                     OIG@peacecorps.gov




To:              Carrie Hessler-Radelet, Acting Director
                 Daljit Bains, Chief Compliance Officer

From:            Kathy A. Buller, Inspector General

Subject:         Management Advisory Report: Certification of Volunteer Payments

Date:            September 24, 2013

The purpose of this Management Advisory Report (MAR) is to bring to your attention that Peace
Corps is out of compliance with the laws and regulations governing the certification of claims
and disbursement of government funds. As a result, payments totaling $2.8 million have been
made to Volunteers during fiscal years (FYs) 2010 through 2013 that were not properly certified.

Results
During our audit of Volunteer reimbursements in Peace Corps/Zambia1, we noted that payment
requests in the Volunteer In Country Allowance (VICA)2 system included recurring allowances
and non-recurring payments to the Volunteers. Unlike recurring allowances, non-recurring
payments are higher risk because they vary in nature, frequency, and amount. These payments
were reviewed by the director of management and operations (DMO) at post and submitted to
Office of Volunteer and Personal Services Contractor Support (VPS) for certification of payment
through VICA. However, the supporting documents remained at post.

The VPS financial management officer (FMO) did not have a systematic methodology to select
and examine that the non-recurring payments were proper, legal, and correct. Although the FMO
occasionally selected non-recurring payments for further examination and obtained supporting
documentation from posts, the FMO did not maintain a record of the items selected for
examination and did not maintain the vouchers obtained from the post. Because DMOs are not
authorized certifying officials,3 those payments were made without proper review by a certifying
officer.




1
  See the Audit Report of Peace Corps/Zambia for the audit standards, objectives, scope, and methodology.
2
  VICA is a web-based application used by posts to order monthly and non-recurring allowances, and
reimbursements for Volunteers. Post staff process changes to Volunteer allowances and input reimbursement
amounts for Volunteer expenses. The DMO approves the changes in allowances and reimbursements input by staff.
VICA generates a summary of Volunteer allowances and reimbursements processed by post for the certification of
payment by VPS. VICA also provides an exception report to allow VPS to identify unusual payments and obtain
explanations from the post prior to approval of payment by the certifying official.
3
  Peace Corps Manual Section 758, “Authorized Certifying Officials.”
Title 31 U.S. Code Section 3521(b)(1)4 as implemented through Government Accountability
Office (GAO) guidelines requires an examination of vouchers, including supporting
documentation, for those over $2,500 and a statistical sampling of those below that amount. The
agency process described above does not comply with those requirements.

As a result of our finding in Zambia, we analyzed the total VICA5 payments made by the agency
for FYs 2010, 2011, and 2012. Our analysis, determined that the agency processed non-recurring
payments of approximately $18 million to Volunteers through VICA between FYs 2010 and
2012. We identified $2.8 million of non-recurring payments that exceeded $2,500 and required
FMO review prior to certification per GAO guidance. Without evidence of certifying official
review these payments were not properly supported and are considered questioned costs.6

           Table 1. Total VICA Payments to Volunteers (dollar amounts in millions)
                                        FY 20107        FY 2011        FY 2012       FY 20138         Total
     Total Payment to                    $10.2           $39.0          $37.9                         $87.1
                                                                                         --
     Volunteers through VICA
     Non-Recurring Payments                $ 1.9          $ 8.0          $ 8.7            --          $ 18.6
     Value of Transactions                 $ 0.1          $ 1.1          $ 1.0           0.6          $ 2.8
     Over $2,500
     Number of Non-
     Recurring Payment Over                 42             388            365           179            974
     $2,500

Until the agency changes the process for VPS FMO’s to review non-recurring payments, it will
continue to be out of compliance with laws and regulations concerning certification of claims
and disbursement of funds. We recommend that the chief financial officer implement a standard
methodology for certifying non-recurring payments to Volunteers in compliance with federal
law.

Agency’s Response
We provided the agency an opportunity to respond to this MAR. Below is the Chief Financial
Officer’s (CFO’s) response.

         CFO concurs with the MAR’s basic finding that a small percentage of unsupported payments exceeding
         $2,500 were processed in VICA prior to a full review by a Certifying Officer. While the intent of VICA
         was to streamline and reduce the cost of processing payments to Volunteers in the field, we realize that the


4
  Subject to limitations prescribed by the comptroller general, agency heads are authorized by 31 U.S.C.
3521(b) to establish statistical sampling programs for the examination of vouchers in support of their
certification and payment. In accordance with this authority, agencies may use statistical sampling for
vouchers in amounts not exceeding $2,500. Within this maximum, agencies are required to establish their own
dollar limitations based on cost/benefit analyses of their voucher examining operations.
5
  A financial management officer (FMO) from VPS certifies the VICA reports submitted by the posts for payment.
6
  In accordance with the Inspector General Act of 1978, as amended, questioned costs include and are not limited to
an alleged violation of the provision of a law or regulation governing the expenditure of funds or costs that are not
supported by adequate documentation.
7
  VICA was not used for part of the year as OCFO implemented VICA in stages between April and September 2010.
8
  The Peace Corps’ fiscal year is from October 1st through September 30th. Accordingly, at the time of this report,
complete FY 13 data was unavailable.

                                                                                                                        2
       standard for certification is that any payment greater than $2,500 must be transparently reviewed and
       certified by a certifying officer.

       In order to address this finding and to eliminate the occurrence of future unsupported payments, CFO will
       hire an additional Certifying Officer to review and certify VICA payments as the burden of having a single
       FMO reviewing all VICA payments exceeds the capacity of a single individual. While this is not an ideal
       solution, it will address the unsupported payment concern.

       In addition, CFO has completed a careful and thorough review of the data and the processes that are
       involved with VICA payments. This analysis included input from CFO representatives from Financial
       Systems, Global Accounts Payable and VPS. CFO has implemented exception reports to identify and select
       for review any VICA payments that exceed $2,500. CFO will review the efficacy of these reports and will
       enhance or add additional reports as needed.

       CFO appreciates the OIG’s efforts to share the MAR draft with our office for our chance to comment and
       review.

The agency anticipates fully remediating this issue by January 2014.




cc:    Stacy Rhodes, Chief of Staff/Chief of Operations
       Elisa Montoya, White House Liaison/Senior Advisor to the Director
       Joseph Hepp, Chief Financial Officer
       Bill Rubin, General Counsel
       Paul Shea, Deputy Chief Financial Officer
       Carlos Torres, Associate Director for Global Operations
       Charles Niner, Director, Office of Volunteer and PSC Financial Services
       Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer




                                                                                                                3
